           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  SUPPLEMENTAL SECURITY INCOME
      RECIPIENTS ELIGIBLE FOR
        VETERANS BENEFITS


   January 2010    A-01-09-19031




 AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY
MEMORANDUM

Date:      January 6, 2010                                                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Supplemental Security Income Recipients Eligible for Veterans Benefits
           (A-01-09-19031)


           OBJECTIVE
           Our objective was to identify Supplemental Security Income (SSI) recipients who were
           potentially eligible for Department of Veterans Affairs (VA) benefits instead of SSI
           payments.

           BACKGROUND
           The SSI program is a national Federal cash assistance program administered by the
           Social Security Administration (SSA) that provides a minimum level of income to
           financially needy individuals who are aged, blind, or disabled. 1 Since the SSI program
           is intended to be a program of last resort, individuals must apply for all other benefits for
           which they are potentially eligible. 2 Generally, individuals are not eligible for SSI if they
           fail to take all the appropriate steps to apply for all other benefits for which they may be
           eligible—including VA benefits. 3

           VA administers a pension program that provides benefits to financially needy veterans
           who are aged or have disabilities unrelated to their military service. 4 VA considers
           individuals disabled if they have been determined disabled by SSA. 5 Veterans must
           also meet eligibility requirements related to their military service to qualify for VA
           pension benefits. Generally, VA monthly benefits are more than SSI payments, so it is
           1
               The Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
           2
               The Social Security Act § 1611(e)(2), 42 U.S.C.§ 1382(e)(2).
           3
               20 C.F.R. § 416.210.
           4
             VA also administers a compensation program that provides benefits to veterans with disabilities related
           to their military service.
           5
               38 U.S.C. § 1502(a)(2).
Page 2 - The Commissioner


usually more advantageous for someone to receive benefits from VA instead of SSI
payments. See Table 1 for a comparison of SSI and VA benefit eligibility requirements.

          Table 1: Comparison of SSI and VA Benefit Eligibility Requirements
                                                                 SSI                  VA Pension
         Benefit Eligibility Requirements
                                                              Payments                 Benefits
    Aged (65 or older) or disabled                                                          
    Limited income or resources                                                             
    Discharged from military service under
                                                                                             
    conditions other than dishonorable
    Served at least 90 days of active military
    service with 1 day during a wartime period.
    After September 7, 1980, generally served                                                
    at least 24 months (or the full period for
    which called or ordered to active duty)

As shown in Table 1, eligibility requirements for SSI payments and VA benefits are
similar since individuals must be aged or disabled and have limited income/resources to
qualify for benefits. Therefore, veterans may, in fact, be eligible for VA benefits instead
of SSI payments if they also meet VA’s requirements related to military service. As a
result, if individuals indicate they served at least 90 days of active military service (with
1 day during a wartime period) while applying for SSI payments, SSA field office staff
refers the individuals to VA to apply for benefits. 6 If individuals do not take all necessary
steps to obtain any VA benefits, the individuals may not be eligible for SSI payments. 7




6
    SSA, Program Operations Manual System, SI 00510.010.
7
 Certain individuals cannot be required to file for VA benefits or do not have their SSI payments
suspended for failure to file for VA benefits. This includes individuals who were entitled to VA benefits as
of December 31, 1978 and reside in Alabama, Alaska, Arizona, Colorado, Delaware, Idaho, Mississippi,
Nevada, New Mexico, South Carolina, South Dakota, Texas, or Wyoming. The Adoption Assistance and
Child Welfare Act of 1980, Pub. L. No. 96-272 § 310(b)(1); the Social Security Act § 1902(a)(10)(A),
42 U.S.C. § 1396a(a)(10)(A); and SSA, Program Operations Manual System SI 00510.005.
Page 3 - The Commissioner


To perform our review, we identified 2,390 SSI recipients as of March 2009 (from 1 of
20 Social Security number segments)8 with military earnings during certain wartime
periods who appeared to meet VA’s requirements for benefits. 9 We randomly selected
100 cases from this population for detailed analysis. 10 (See Appendix B for more details
on our scope, methodology, and sample results.)

RESULTS OF REVIEW
We found that some SSI recipients appeared potentially eligible for VA benefits instead
of SSI payments. Based on our review, we estimate SSA paid about $1.3 billion to
approximately 22,000 SSI recipients who appeared to meet VA requirements for
benefits. In addition, we estimate that SSA will continue to pay about $126 million in
SSI payments over the next 12 months to individuals who appeared eligible for VA
benefits instead of SSI payments.

                      Sample Results
                                                           Of the 100 cases in our sample,
                                                45
          45                                Not Eligible      •   45 appeared potentially eligible
      Potentially                                                 for VA benefits;
       Eligible                45%
                     45%                                      •   45 did not appear eligible for VA
                                     10%                          benefits; 11 and

                                             10 Unable        •   10 had military earnings, but we
                                           to Determine           were unable to determine
                                                                  potential VA benefit eligibility. 12




8
 The last 2 digits of the Social Security number are randomly assigned and can contain digits “00” to
“99.” Social Security numbers can be categorized into 20 segments, each containing 5 sequential groups
of these digits. For this audit, we randomly selected Social Security numbers ending with the digits
“30” to “34” from 1 Social Security number segment.
9
 We included individuals with military earnings during the following wartime periods in our review:
Vietnam era (August 5, 1964 to May 7, 1975) and Persian Gulf War (August 2, 1990 through a date to be
prescribed by Presidential proclamation or law). 38 C.F.R §§ 3.2(f) and 3.2(i). We also included the
conflicts in Iraq and Afghanistan (2001 to present) in our review. In addition, these individuals met SSA’s
age/disability and income/resource requirements.
10
     Our sample of 100 cases included 98 disabled SSI recipients and 2 aged SSI recipients.

11
  This included individuals who did not appear to meet VA’s requirements for benefits. For example,
six individuals did not serve at least 1 day during a wartime period.
12
  For these cases, the individual’s length of military service and/or discharge status was unknown.
Therefore, we were unable to determine whether they met VA’s requirements for benefits. These
10 recipients received about $550,000 in SSI as of June 2009.
Page 4 - The Commissioner


SSI RECIPIENTS POTENTIALLY ELIGIBLE FOR VA BENEFITS

In total, 45 SSI recipients in our sample appeared potentially eligible for VA benefits
instead of SSI and had received approximately $2.7 million in SSI as of June 2009.
These recipients had received SSI payments for an average of 134 months—or
11 years—as of June 2009. 13 Of the 45 individuals, 44 served during the Vietnam era
and 1 during the Persian Gulf War.

For example, in one case, a disabled SSI recipient had military earnings during the
Vietnam era. This recipient served in the Army from October 1968 to July 1970 for
approximately 640 days—with at least 1 day during wartime—and received an
honorable discharge from the military. Therefore, he appeared to meet VA’s
requirements for benefits and received about $104,000 in SSI payments from
January 1993 to June 2009. According to SSA’s systems, there was no indication this
individual had applied for VA benefits.

In another example, a disabled SSI recipient had military earnings during the Persian
Gulf War. This recipient served in the Navy from June 1988 to May 1992 for about
1,427 days and received an honorable discharge from the military. Therefore, he
appeared to meet VA’s requirements for benefits and received about $36,000 in SSI
payments from January 2003 to June 2009. According to SSA’s systems, there was no
indication this individual had applied for VA benefits.

VA benefits are generally of greater monetary value than SSI payments—so it is usually
more advantageous for individuals to receive VA benefits. Specifically, in Fiscal Year
2007, the average monthly VA benefit was $709, whereas the average monthly SSI
payment was $468. 14 In addition, the greatest Federal monthly SSI payment an
individual could receive in 2007 was $623. 15 Therefore, if these individuals are, in fact,
eligible for VA benefits, they could receive higher monthly benefit payments.

Although individuals in our sample appeared potentially eligible for VA benefits, only
VA—not SSA—can make that determination. As of August 2009, VA had a backlog of
approximately 400,000 pending cases—and it could create an additional workload for
VA if all potentially eligible individuals file for benefits. 16 Although VA had a backlog, it


13
     The median was 120 months.
14
   VA, Pamphlet on Strategic Goals, p. 2, February 2008. According to this Pamphlet, the annual average
VA pension payment for 2007 was $8,509. We divided the $8,509 by 12 to calculate the monthly average
of $709. The 2007 average monthly SSI payment was obtained from the SSA Annual Statistical
Supplement, p. 3, 2008.
15
  SSA, SSI Annual Statistical Report, 2007, p. 15. These individuals could receive an additional cash
benefit from the State to supplement the Federal SSI payment. In some States, the supplement is
administered by SSA and included in the SSI check.
16
     The 400,000 claims pending included all VA disability claims—not just VA pension claims.
Page 5 - The Commissioner


was committed to reducing the processing times of disability claims and was trying to
improve its technologies to process the claims faster and more efficiently.

SSA’s EFFORTS TO WORK WITH VA

At the time of our audit, SSA’s Office of Quality Performance was working with VA to
determine whether SSI recipients were actually eligible for VA benefits. Specifically, in
September 2009, SSA provided VA information on approximately 62,000 SSI recipients
so VA could determine whether these individuals were, in fact, eligible for benefits. As
of November 2009, VA was still analyzing these cases. 17

CONCLUSION AND RECOMMENDATION
We found that some SSI recipients appeared potentially eligible for VA benefits instead
of SSI payments. Generally, it is more advantageous for an individual to receive VA
benefits instead of SSI since those monthly benefits tend to be higher. We estimate
SSA paid about $1.3 billion to approximately 22,000 SSI recipients who appeared to
meet VA requirements for benefits—however, only VA can determine whether these
individuals are, in fact, eligible for VA benefits. At the time of our review, SSA was
working with VA to address this issue. However, VA had a backlog of pending cases,
and this could create an additional workload if all SSI recipients potentially eligible filed
for VA benefits.

In addition, we estimate that SSA will continue to pay about $126 million in SSI
payments over the next 12 months to individuals who appeared eligible for VA benefits
instead of SSI payments. Therefore, we recommend SSA continue its efforts to work
with VA to ensure individuals who should be receiving VA benefits instead of SSI
payments are, in fact, receiving VA benefits.

AGENCY COMMENTS
SSA agreed with our recommendation. See Appendix C.




                                                        Patrick P. O’Carroll, Jr.




17
  In May 2008, the Government Accountability Office (GAO) recommended more coordination between
Federal agencies in providing benefits to individuals. GAO, Federal Disability Programs: More Strategic
Coordination Could Help Overcome Challenges to Needed Transformation, May 2008.
                                   Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope, Methodology, and Sample Results

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                 Appendix A

Acronyms
C.F.R.        Code of Federal Regulations

GAO           Government Accountability Office

Pub. L. No.   Public Law Number

SSA           Social Security Administration

SSI           Supplemental Security Income

U.S.C.        United States Code

VA            Department of Veterans Affairs
                                                                                Appendix B

Scope, Methodology, and Sample Results
To accomplish our objective, we:

•   Reviewed applicable sections of the Social Security Act and other relevant
    legislation as well as the Social Security Administration’s (SSA) regulations, rules,
    policies, and procedures.
•   Identified 2,390 Supplement Security Income (SSI) recipients as of March 2009
    (from 1 of 20 Social Security number segments) 1 with military earnings during
    certain wartime periods who appeared to meet the Department of Veterans Affairs
    (VA) requirements for benefits.2 Specifically, it appeared these individuals
     were discharged from military service under conditions other than dishonorable
      and
     served at least 90 days of active military service with 1 day during a wartime
      period; or after September 7, 1980, generally served at least 24 months (or the
      full period for which called or ordered to active duty). 3
•   From this population, we selected a random sample of 100 cases for detailed
    analysis. Our sample included 98 disabled SSI recipients and 2 aged SSI recipients.
    We analyzed each case to determine whether the SSI recipient appeared potentially
    eligible for VA benefits. Specifically, we:
     Reviewed available information on the following SSA systems: Supplemental
      Security Record, Modernized Claims System, Modernized SSI Claims System,
      Master Earnings File, and VA Benefits Query.
     Researched information related to the individuals’ military service available on
      the National Archives and Records Administration database. 4


1
  The last 2 digits of the Social Security number are randomly assigned and can contain digits “00” to
“99.” Social Security numbers can be categorized into 20 segments, each containing 5 sequential groups
of these digits. For this audit, we randomly selected Social Security numbers ending with the digits
“30” to “34” from 1 Social Security number segment.
2
 These individuals met SSA’s age/disability and income/resource requirements. We did not determine
whether they also met VA’s age/disability and income/resource requirements.
3
  We included individuals with military earnings during the following wartime periods in our review:
Vietnam era (August 5, 1964 to May 7, 1975) and Persian Gulf War (August 2, 1990 through a date to be
prescribed by Presidential proclamation or law). 38 C.F.R §§ 3.2(f) and 3.2(i). We also included the
conflicts in Iraq and Afghanistan (2001 to present). For the purposes of our review, we only included
individuals with earnings beginning in 1968 for the Vietnam era.
4
 The National Archives and Records Administration is the nation’s recordkeeper of all documents and
materials created in the course of business by the U.S. Government.


                                                  B-1
     Calculated the amount of SSI received by recipients who appeared potentially
      eligible for VA benefits as of June 2009.
•   Obtained information from SSA’s Office of Quality Performance on the Agency’s
    efforts to work with VA.

We performed our audit between June and October 2009 in Boston, Massachusetts.
We tested the data obtained for our audit and determined them to be sufficiently reliable
to meet our objective. The entities audited were SSA’s field offices under the Deputy
Commissioner for Operations. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

SAMPLE RESULTS

                             Table B-1: Population and Sample Size
 Population (one segment)                                                                     2,390
 Sample Size                                                                                    100
 Estimated Number of Recipients in the Universe (Population of audited segment
                                                                                             47,800
 multiplied by 20)


 Table B-2: SSI Payments to Recipients Potentially                  Number of
                                                                                         Dollars
 Eligible for VA Benefits                                           Recipients
 Sample Results                                                                  45      $2,683,550
 Point Estimate                                                            1,076        $64,136,848
    Projection Lower Limit                                                   877        $47,046,785
    Projection Upper Limit                                                 1,279        $81,226,911
 Estimate in 20 Segments (Point estimate multiplied by 20)                21,520      $1,282,736,960
  Note: All projections are at the 90-percent confidence level.

 Table B-3: SSI Payments SSA Will Continue to Pay over
                                                                    Number of
 the Next 12 Months to Recipients Potentially Eligible for                               Dollars
                                                                    Recipients
 VA Benefits
 Sample Results                                                                  45        $262,717
 Point Estimate                                                            1,076         $6,278,953
    Projection Lower Limit                                                   877         $4,816,134
    Projection Upper Limit                                                 1,279         $7,741,771
 Estimate in 20 Segments (Point estimate multiplied by 20)                21,520       $125,579,060
  Note: All projections are at the 90-percent confidence level.




                                                    B-2
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY
MEMORANDUM


Date:      December 28, 2009                                                      Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel /s/ Dean Landis for
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Supplemental Security Income Recipients
           Eligible for Veterans Benefits” (A-01-09-19031)—INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report findings and
           recommendation.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “SUPPLEMENTAL SECURITY INCOME RECIPIENTS ELIGIBLE FOR
VETERANS BENEFITS” (A-01-09-19031)


Recommendation

Continue the efforts to work with the Department of Veterans Affairs (VA) to ensure individuals
who should be receiving VA benefits instead of Supplement Security Income (SSI) payments
are, in fact, receiving VA benefits.

Comment

We agree. We will continue to work with the VA to identify SSI recipients who may be eligible
for VA benefits. In addition, we will ensure that those SSI recipients who are eligible for VA
benefits take the necessary actions to apply and receive VA benefits.




                                              C-2
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

Acknowledgments

In addition to those named above:

   Kevin Joyce, IT Specialist

   Melinda Padeiro, Senior Auditor

   Katie Toli, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-09-19031.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
